                      Closeout of M90110047


1990 by
It concern . .

a published paper into a proposal he was submitting to NSF.
Although he had cited the paper, he had not indicated that he was
copying nearly word for word.
OIG regarded this as a minor case because the source was
otherwise carefully cited and the extent of the copying was very
limited. In other situations, however, verbatim copying without
acknowledgment is a serious matter that causes strong protests.
The issue was resolved by a telephone conversation with the
subject in which the conventions for citation were,discussed. He
said that the offense was inadvektent and in the future he will
be more careful. OIG considers this a satisfactory resolution of
the case and has decided not to pursue it further.




Copy: Inspector General                             3" P & ? I
      Assistant Inspector General for Oversight
